Loa
I

C@OCKLE

2311 Douglas Street ‘i E-Mail Address:
Omaha, Nebraska 68102-1214 Lega 1B z felt contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 20-202
ROBERT MASSIE,
Petitioner,
Vv.
BASILEA MENA,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY IN SUPPORT OF
PETITION FOR WRIT OF CERTIORARI in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 2645 words, excluding the parts
that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 24th day of November, 2020.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

My Comm. Exp. September 5, 2023

 

GENERAL WOTARY-Slae of Nebraska adume Av Chk
RENEE J. GOSS 9. :
Notary Public

Affiant

40383
